     INSPECI'OR GENERAL




     UNITED STATES INTERNATIONAL TRADE COMMISSION

                          WASHINGTON, D.C. 20436



April 30, 1991




The Office of Inspector General has completed an audit of the USITC
imprest funds. According to the Treasury Financial Manual (I TFM
4-3040. 90), agencies are responsible for making quarterly cash
counts and periodic unannounced audits of each imprest fund. The
purpose of the audit was to determine if funds were properly
accounted for and administered in accordance with USITC policy and
Treasury guidelines. As part of this review, we also evaluated the
management of the official representation fund.

Two imprest funds have been established in the USITC.     One fund,
amounting to $1,500, is located in the Office of Management
Services (OMS), Procurement Division, and handles local travel and
small purchase·s. An alternate has been advanced $200 of this fund.
A second fund, amounting to $6,000, is located in the Office of
Finance and Budget (OFB) and handles travel advances, and payment
of travel vouchers and official reception and representation
claims. A subfund of $2,000 was established from this fund.
We found that, in general, the OMS and OFB imprest funds were in
balance and had adequate internal controls over authorization and
documentation of expenditures and physical security.          Our
evaluation of the official representation fund found there were
adequate policies and procedures for authorizing and controlling
disbursements.

We found several areas of noncompliance with Treasury guidelines
that are nonmaterial in nature.    These were a lapse in security
over the OFB fund, the absence of approvals for claims made by
certain Commission officials, and inadequate accounting for
replenishments in the OFB subfund.        Our followup on prior
recommendations found that corrective actions had been implemented
as agreed, but the action taken on the recommendation to evaluate
the level of the OFB subfund needs to be readdressed.
We recommend that the Director, Office of Administration:

          Clarify policy on authorization of imprest fund claims
          for Office Directors and obtain delegation of authority
          from the Chairman if appropriate (page 5); and
          Reduce the level of the OFB subcashier's fund to no more
          than $1,500 or obtain the Chairman's approval that the
          $2, 000 is needed based on considerations such as the
          purpose of the fund (page 7).

The Director of Administration agreed with the first recommendation
and, based on the Acting Chairman's decision, plans to reduce the
level of the OFB subcashier's fund to $1,500 by May 1, 1991. The
Director's comments are presented in their entirety as an appendix


                                                 if
to the report.

                               /W-
                                . &:&'
                                   ~ 4~
                             ~e          Altenho~e·
                                                   -1"b
                                    E.
                              Inspector General
                                           TABLE OF CONTENTS


INTRODUCTION AN'D SCOPE •••••••••••••••••••••••••••••••••••••••••• 1

BACKGROUND • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • • •••• 2

FINDINGS AN'D RECOMMENDATIONS •••••••••••••••••••••••••••••••••••• 3

IMPREST FUND •••••••••••••••••••••••••••••••••••••••••••••••••••• 3

        Physical Security .......................................... 3
        Certification of Claims for Reimbursement .................. 4
        Replenishments ............................................. 4
        Recornrnenda tion ............................................. 5
REPRESENTATION FUND ••••••••••••••••••••••••••••••••••••••••••••• 5

PRIOR YEAR RECOMMENDATIONS •••••••••••••••••••••••••••••••••••••• 5

        Authorizing Signatures ..................................... 6
        Revised Directives and Procedures .......................... 6
        Accountability for Transfer of Cash ........................ 6
        Fund Level . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

        Recornrnenda tion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


Appendix - Memorandum from Director, Office of Administration,
           dated April 24, 1991, on Draft Report
The Office of Inspector General has completed an audit of the USITC
imprest funds. According to the Treasury Financial Manual (I TFM
4-3040. 90),  agencies   are  responsible   for   making   periodic
unannounced audits of each imprest fund. The purpose of this audit
was to determine if funds were properly accounted for and
administered in accordance with USITC policy and Treasury
guidelines.
Our review was conducted in January 1991.     The field work was
performed at Commission Headquarters in Washington, D.C. in the
Office of Finance and Budget (OFB) and the Office of Management
Services (OMS), Procurement Division. We performed a cash count
and reconciliation of the imprest funds to determine if the funds
were properly accounted for. We validated a sample of expenditures
to determine if they were properly documented and authorized. We
determined whether the fund levels were consistent with cash
requirements.   We reviewed Commission policies and procedures,
including physical safeguards, for assurance that the funds were
adequately protected.
The audit covered imprest fund activity during Fiscal Year (FY)
1990 and FY 1991 through January 10, 1991.      In addition to a
routine cash count of the funds on January 10, we examined 25
expense vouchers totaling $555.39 on hand in the OMS fund, and 12
travel advances totaling $2070.00 in the OFB fund.        We also
examined vouchers to replenish the funds that were paid during the
period November 1989 through July 1990 in order to evaluate the
appropriateness of the fund levels.
As part of this review, we evaluated the management of the official
representation fund. We evaluated the policies and procedures for
authorizing and controlling disbursements.       We reviewed all
expenditures made from the fund in FY 1990.
A prior audit report on the Commission imprest funds was issued on
October 19, 1989, (IG-01-90). The Director, Office of Administra-
tion reported that corrective action had been completed on the
recommendations in this report in a memorandum to the Audit
Followup Official dated May 4, 1990.    We determined whether the
action taken had adequately addressed the recommendations.
This review was performed in accordance with applicable generally
accepted government auditing standards.   Accordingly, the review
included an examination of internal controls and other auditing
procedures that were considered necessary under the circumstances.




                                 1
An imprest fund is a fixed cash or petty cash fund in the form of
currency, coins or treasury checks, which has been advanced to an
authorized cashier by an official Government disbursing officer,
without charge to an appropriation or fund account.           The
disbursements from the fund are generally made to employees:
(1) for purchasing small dollar goods and services from vendors;
(2) as advances for specifically authorized expenditures; or (3)
as reimbursements for authorized expenditures.
Two imprest funds have been established in the USITC. One fund of
$1,500 located in the OMS, Procurement Division, is for local
travel, small purchases, and certain training related expenses.
An alternate has been advanced $200 of this fund.    A second fund
of $6,000 located in OFB is for travel advances, travel vouchers
and official reception and representation claims.     A subfund of
$2,000 was established from this fund.

Guidance concerning the establishment and maintenance of the
imprest funds and the responsibilities of cashiers and disbursing
officers is set forth in the Treasury Financial Manual, Volume I,
Part 4, Chapter 3000; the Treasury Manual of Procedures and
Instructions for Cashiers, July 1985; USITC Directive 3602.1,
Imprest Fund Claims and Advances, dated February 1, 1990; and desk
top procedures issued by the Procurement Division on December 29,
1989, and OFB on January 18, 1990.
The establishment and use of an official            reception and
representation fund not to exceed $2,500 is authorized in the
Commission • s FYs 1990 and 1991 appropriation laws.     Applicable
policies and procedures are set forth in USITC Administrative Order
87-8,  Official Reception and Representation Expenses,          and
Acceptance of Gifts, Devices, and Bequests of Property, issued June
26, 1987.
Agencies are responsible for making quarterly cash counts of the
imprest funds.    At the request of the Director, Office of
Administration, the Inspector General has agreed to conduct these
cash counts. During FY 1990 and the first quarter of FY 1991, five
cash counts of the imprest funds were conducted by the Inspector
General.     The funds were generally in balance with minor
differences.




                                 2
    We found that, in general, the OMS and OFB imprest funds were in
    balance and had adequate internal controls over authorization and
    documentation of expenditures and physical security.          Our
    evaluation of the official representation fund found there were
Q
    adequate policies and procedures for authorizing and controlling
    disbursements.
    We found several areas of noncompliance with Treasury guidelines
    that are nonmaterial in nature.    These were a lapse in security
    over the OFB fund, the absence of approvals for claims made by
    certain Commission officials, and inadequate accounting for
    replenishments in the OFB subfund.        Our followup on prior
    recommendations found that corrective actions had been implemented
    as agreed, but the action taken on the recommendation to evaluate
    the level of the OFB subfund needs to be readdressed.




    Our routine count of the cash and documentation on hand on January
    10, 1991, revealed that the imprest funds were in balance with the
    exception of the OFB main fund. The balance of that fund exceeded
    the established level of $4,000 by $1.00.        Several areas of
    noncompliance with Treasury guidelines, that are nonmaterial in
    nature, were a lapse in security over the OFB fund, the absence of
    approvals for claims made by certain Commission officials; and
    inadequate accounting for replenishments in the OFB subfund.


    Physical Security
    Upon commencement of our cash count of the main OFB fund, we
    observed that the cabinet in which the cash box was stored was
    unlocked.   The Treasury Manual states that security should be
    constantly maintained over the imprest fund and that the cash be
    adequately protected at all times. The OFB policy is to physically
    secure the fund in a locked cash box, stored inside a cabinet
    equipped with a combination lock that is located inside a locked
    closet with an audible alarm system. It is important to lock the
    cabinet even when the box and door are locked.   For instance, if
    someone obtained the keys to the closet (the cashier and the
    Director, OFB have sets) they could take the cash box.         The
    Director, OFB has discussed the importance of adhering to security
    procedures with the cashier.



                                    3
Certification of Claims for Reimbursement
We found that three of the claims for reimbursement of local travel
expenses were paid without a signature of an approving official as
correct and proper for payment.      Paragraph 4. a. 1 of Directive
3602.1 requires that the claimant's supervisor, as authorizing
official, must ensure that all claims for reimbursements of local
transportation,   small   purchases,   and  travel    vouchers  are
expenditures connected with official business and have proper
documentation.   The employee is to obtain the signature of the
authorizing official.
Two of the unauthorized claims, in the amounts of $32.25 and $32.85
respectively, were made by the Director, Office of Executive and
International Liaison, and paid by the principle OMS cashier.
According to the cashier and the Chief of the Procurement Division,
claims for some USITC officials, such as Office Directors and
Conunissioners, have customarily been paid without an approving
official signature.
In general, the Commission's enabling legislation provides that the
Chairman of the Commission is to approve all appropriate expenses
upon the presentation of itemized vouchers therefor with the
exception that individual Conunissioners may approve their own
expense vouchers and those of their personal staff. The Chairman
has delegated the authority to approve certain travel and other
expenses to various Commission employees.     The Chairman has not
delegated authority for any Conunission employees to approve their
own expense claims.

We believe the supervisor's approval is a good control and not one
that is oppressive to the supervisors or employees involved. our
preference would be for all Office Directors to have their imprest
fund claims authorized by a supervisor. If this is determined to
be administratively burdensome, the Chairman could delegate
authority to the Office Directors to authorize their own claims.
For control purposes, we would prefer this delegation be made only
to the Office Directors that report to the Chairman but could be
extended to all Office Directors.

One claim, in the amount of $6.00 was made by an employee of    the
General counsel. According to the OMS cashier, the absence of   the
General Counsel's signature as an approving official            was
inadvertently overlooked when the claim was paid. The cashier   had
the General Counsel sign the voucher inunediately.


Replenishments
We found that the principle OFB cashier does not account for cash
advances to the subcashier in accordance with suggested Treasury
procedures.   According to the Treasury Manual, replenishments

                                 4
    should be submitted on an SF 1129 or agency equivalent voucher.
    In OFB, the subcashier exchanged vouchers for cash to replenish the
    fund.   The subcashier initialed a log to indicate the amount of
    cash received but did not prepare a SF 1129 or equivalent agency
    voucher.   The Director of OFB directed his staff to immediately
    develop a form to use as an equivalent agency voucher and to then
•   amend the desk procedures.


    Recommendation
    We recommend that the Director, Office of Administration clarify
    policy on authorization of imprest fund claims for Office Directors
    and obtain delegation of authority from the Chairman if
    appropriate.




    We found     there were adequate policies and procedures for
    authorizing and controlling disbursements from the official
    representation fund.      The Commission's FYs 1990 and 1991
    appropriation   provides   funds   for   official   reception   and
    representation expenses not to exceed $2,500. These funds may be
    used for meals for both government and non-government personnel and
    light refreshments at career service award ceremonies.           As
    stipulated in Administrative Order 87-8, all expenditures for such
    purposes must be justified in writing and approved only by the
    Chairman.   The Chairman's approval should be documented on a
    special Commission form which discloses the purpose and cost of the
    event.
    We found that in FY 1990, the official reception and representation
    fund was utilized three times for an official reception for
    Commission employees, and an official dinner and breakfast for
    visiting foreign dignitaries.    The cost of those events amounted
    to $440.67. According to OFB records, these expenditures were duly
    authorized by the Chairman and supported by written justifications,
    receipts for goods purchased, and other documentation.




    We performed a followup verification of corrective actions taken
    in response to the recommendations in the prior audit report. The
    audit report included recommendations concerning authorizing
    signatures, revising directives and procedures, accounting for the
    transfer of cash, and reducing the amount of one of the funds. The
    Director, Office of Administration notified the Audit Followup
    Official on May 4, 1990, that corrective action had been completed

                                     5
on all of the recommendations. Our review found that the actions
taken on three recommendations were sufficient, but that the
recommendation on the OFB subcashier' s fund level needs to be
readdressed.

Authorizing Signatures

We recommended that official Signature/Designation Cards for
Certifying Officers or memoranda documenting personnel authorized
to request disbursements be prepared.      On March 27, 1990, the
Director, Office of Administration notified the Chairman that the
designations had been made using a memorandum format. In reviewing
the imprest funds, we found that the cashiers were using the
signatures for reference as required.


Revised Directives and Procedures

We recommended that an agency-wide directive and cashier. desk
procedures on imprest fund operations be issued that incorporate
Treasury guidelines and set forth policy and procedures unique to
the Commission.   USITC Directive 3602.1, Imprest Fund Claims and
Advances, was issued on February 1, 1990. Desk top procedures were
issued by OFB on January 18, 1990, and by OMS on December 29, 1989.

Accountability for Transfer of Cash

We recommended that receipts (SF 1165s) be prepared to account for
advances in accordance with Treasury guidelines.     A SF 1165 was
prepared to advance funds to the OFB subcashier on September 5,
1989. OMS began using the SF 1165 to support fund replenishments
in late 1988, but had not prepared a SF 1165 for the original
advance of funds to the alternate cashier. OMS prepared a SF 1165
for the original advance after this was brought to their attention.


Fund Level

We recommended that the OFB subcashier's fund be reevaluated after
six months of operation and, if warranted, be reduced.        In a
memorandum dated November 30, 1989, the Director of OFB presented
the six month experience of the fund. The bi-monthly turnover rate
from June through November 1989 averaged $1,700 and the usage was
increasing in the later months indicating that the $2,000 level was
justified.
Treasury guidelines state that cash on hand must be kept to the
minimum needed to meet normal requirements and recommends that
every effort be made to minimize outstanding balances.     They
recommend that the cashier turn over the advance at least once

                                 6
    every two months, although consideration should be given to the
    processing time for preparation of the reimbursement voucher, the
    time required to process the payment request and return the
    replenishment checks to the cashier and the purpose of the fund.
    We did not find that the latter considerations justified an
G
    increased level for the OFB subfund.
    We found that the average bi-monthly turnover of the OFB subfund
    was only $760 over the fifteen month period after the trial period.
    This level of activity indicates that the $2,000 level of the
    subfund far exceeds a reasonable level consistent with the needs
    of the Commission and Treasury guidelines.     The previous report
    suggested reducing the fund balance to no more than $1,500.      We
    believe that this level would be sufficient based on the historic
    utilization of the fund.    If the subfund were reduced, the $500
    could be retained in the main fund which had a higher turnover rate
    rather than have an overall reduction in the fund.

    Recommendation
    We recommend that the Director, Office of Administration reduce the
    level of the OFB subcashier's fund to no more than $1,500 or obtain
    the Chairman's approval that the $2,000 is needed based on
    considerations such as the purpose of the fund.




                                     7
                                                             Appendix

                                                         AD-0-291


                       -----·--·--------- - - - - - - - - -
UNITED STATES INTERNATIONAL TRADE COMMISSION

                      WASHINGTON. DC 20436




 April 24, 1991


 MEMORANDUM


 TO:           Inspector General                   ~

 FROM:         Director, Office of   Administrati~~~
 SUBJECT:      Draft Report: Audit of USITC's Imprest and Official
               Representation Funds


 As requested by your memorandum dated March 18, 1991 (IG-0-031),
 submitted as an attachment to this memorandum is the Office of
 Administration's response to the subject draft audit report issued
 in March 1991. In accordance with Section 11 of the USITC
 Directive 1701, the Commissioners have had an opportunity to
 comment on the response and the Acting Chairman has approved it
 with a modification. We plan to comply with the Acting Chairman's
 decision on the subcashier's fund in the Office of Finance and
 Budget by May 1, 1991.

 Please call me at 252-1131 or Bill Stuchbery at 252-1135 if you
 have any questions.


 Attachments
 cc:     Director, Office of Finance and Budget
         Director, Office of Management Services
                                                  AD-0-253


·--------·------------------------------------------------
UNITED STATES INTERNATIONAL TRADE COMMISSION

                    WASHINGTON, DC 20436




April 5, 1991


TO:             Acting Chairman Brunsdale           ' ~
FROM:           Director, Office of   Administratio~~~~~
SUBJECT:        Approval of Administration's Comments of the Inspector
                General's Draft Audit Report: "Audit of USITC's
                Imprest and Official Representation Funds"

On March 18, 1991, the Inspector General submitted copies of the
subject audit to each Commissioner by memorandum (IG-0-031). The IG
also requested Administration to review the draft audit report and
make comments if necessary. In accordance with Section 11 of USITC
Directive #1701, "Audit Policies and Procedures", the Office of
Administration has sent its comments in draft to the Commissioners,
other than you as Acting Chairman, for review. Commissioners Rohr,
Lodwick and Newquist did not have any comments at this time.
Confirmation was made with their staff assistants.

This audit contains a number of recommendations which are considered
non-material, but where policies and procedures need to be refined or
appropriate steps taken to correct the situation.

The Office of Administration agrees with the Inspector General's
recommendation to clarify policy on authorization of imprest fund
claims for Office Directors and obtain delegation of authority from
the Chairman if appropriate. We intend to complete the action on
this recommendation by June 14, 1991. However, we disagree with the
recommendation to "reduce the level of the OFB subcashier's fund to
no more than $1,500 or obtain the Chairman's approval that the $2,000
is needed based on considerations such as purpose of the fund."
When we established the subcashier fund it was to provide travel
advances to Commission staff when for some reason the main cashier
was not available (e.g. emergency leave, away at meetings, etc.). As
far as our customers are concerned, the Office of Finance and Budget
has one imprest fund in Room 316, which meets their requirements.
With the Commission staff taking between 700 and 800 trips per year
it is not inconceivable that with the maximum allowable cash advance
level at $500.00 we could deplete the subcashier fund within a short
period of time. Therefore it is our recommendation that the
subcashier fund remain at $2,000 and the main fund at $4,000.

In accordance with Section 11 of USITC Directive #1701, submitted
herewith are Administration's comments and corrective action plan for
your approval before they are sent to the Inspector General and a
copy of the draft audit report. Since the IG has set a deadline of
April 18, 1991, for receiving a final response, it would be
appreciated if you could indicate your approval, or modification, by
the close of business Tuesday, April 16, 1991.


Approved: ___

Modify as follows:   :5.,b c:.a.5 4,·c.v ~J ~ be.   e:.Lb {,~I.)   -+ tt   1s-do

'~n~P~                                              ¥J.~h,
      Acting Chairman


Attachment


cc:   Director, Office of Management Services
      Director, Office of Finance and Budget
      Inspector General w/o attachment
